No. 19-783
IN THE

Supreme Court of the United States
————
NATHAN VAN BUREN,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
————
On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
————
BRIEF OF THE FEDERAL LAW
ENFORCEMENT OFFICERS
ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF RESPONDENT
————
JOSEPH V. DEMARCO
Counsel of Record
DAVID M. HIRSCHBERG
ERIC SEIDEL
BRIAN A. FOX
DEVORE & DEMARCO LLP
99 Park Avenue, Suite 1100
New York, NY 10016
(212) 922-9499
(917) 576-2369
jvd@devoredemarco.com
Counsel for Amicus Curiae
August 31, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

INTEREST OF AMICUS CURIAE .....................

1

SUMMARY OF ARGUMENT .............................

2

ARGUMENT ........................................................

6

I.

AN INTERPRETATION OF THE CFAA
WHICH ONLY FOCUSES ON THREATS
FROM OUTSIDE “HACKERS” IGNORES
THE REALITY OF HOW MODERN
COMPUTER SYSTEMS, INCLUDING
THOSE USED BY LAW ENFORCEMENT, OPERATE .....................................

6

A. Computerized Systems Used by
Federal Law Enforcement Agents and
Officers Are Repositories of Massive
Amounts
of
Highly
Sensitive
Information ..........................................

6

B. Law Enforcement Systems and Databases are Legitimately and Regularly
Accessed by a Large Number of Users

9

THREATS TO LAW ENFORCEMENT
DATABASES AND COMPUTER SYSTEMS ARE THREATS TO PUBLIC
SAFETY AND TO THE ADMINISTRATION OF JUSTICE ..................................

10

III. THE CFAA IS A PROVEN METHOD OF
PROTECTING GOVERNMENT SYSTEMS FROM INSIDER THREATS .........

13

A. The Threat of Data Theft ....................

13

II.

(i)

ii
TABLE OF CONTENTS—Continued
Page
B. The Threat of Data Manipulation ......

16

IV. A PURELY “OUTSIDE HACKER”
INTERPRETATION OF THE CFAA
WOULD LIMIT ITS UTILITY AND
IMPOSE SUBSTANTIAL COSTS ON
ITS USE ....................................................

19

CONCLUSION ....................................................

23

iii
TABLE OF AUTHORITIES
CASES

Page(s)

United States v. Manning,
78 M.J. 501, 510-11 (U.S. Army
Ct. Crim. App. 2018) .................................

16

United States v. Morris,
928 F.2d 504 (2d Cir. 1991), cert.
denied, 502 U.S. 817 (1991) ......................

13

STATUTES
18 U.S.C. § 1030(e)(6) ...................................... 2, 17
18 U.S.C. § 1519...............................................

19

COURT FILINGS
Complaint, United States v Figeroa et al.,
No. 15-cr-02818 (S.D. Cal. Oct. 7, 2015) ...

19

Indictment, United States v. Bright, No.
15-cr-00366 (M.D. Fla. Sep. 9, 2015) ........

15

Indictment, United States v. Duchak, No.
10-cr-00131 (D. Colo. Mar. 9, 2010) .........

18

Indictment, United States v. Perry, No. 09cr-0090 (D. Md. Feb. 25, 2009) .................

14

Information, United States v. Quidilla, No.
11-cr-00617 (S.D. Cal., Feb. 17, 2011),
Dkt. No. 14 ................................................

18

iv
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

Michael Balsamo and Colleen Long, AP
Exclusive: Police Officers’ Personal Info
Leaked Online, Associated Press (Jun.
10, 2020), https://apnews.com/23a5e9d31
6127994ae31ad4813db3f80 ......................

9

U.S. Attorney’s Office for the District of
Colorado, Colorado Springs Man Indicted
for Attempting to Corrupt TSA Computer
Database, U.S. Department of Justice
(Mar. 10, 2010), https://www.justice.gov/
archive/usao/co/news/2010/March10/3_10
_10.html ....................................................

18

U.S. Attorney’s Office for the District of
Maryland, DEA Contractor Pleads Guilty
to Illegally Accessing Government Database,
U.S. Department of Justice (Oct. 20,
2009), https://www.justice.gov/archive/us
ao/md/news/archive/DeaContractorPleads
GuiltytoIllegallyAccessingGovernment
Database.html ...........................................

14

U.S. Attorney’s Office for the Middle District
of Florida, Former Police Department
Employee Indicted for Tax Fraud,
Computer Intrusion, and Identity Theft,
U.S. Department of Justice (Sept. 15,
2015), https://www.justice.gov/usao-mdfl/
pr/former-police-department-employee-ind
icted-tax-fraud-computer-intrusion-andidentity ......................................................

15

v
TABLE OF AUTHORITIES—Continued
Page(s)
U.S. Attorney’s Office for the Southern
District of California, Former U.S. Border
Patrol Supervisor Pleads Guilty, Admits
to Violating Civil Rights of Legal Border
Crosser, U.S. Department of Justice
(Aug. 16, 2018), https://www.justice.gov/
usao-sdca/pr/former-us-border-patrol-sup
ervisor-pleads-guilty-admits-violating-ci
vil-rights-legal ...........................................

19

U.S. Dep’t of Justice, Office of Justice
Programs, Bureau of Justice Statistics,
Federal Law Enforcement Officers, 2016
— Statistical Tables, NCJ 261992 (Oct.
2019), https://www.bjs.gov/content/pub/
pdf/fleo16st.pdf..........................................

9

INTEREST OF AMICUS CURIAE1
The Federal Law Enforcement Officers Association
(“FLEOA”), a volunteer organization founded in 1977,
is the largest nonpartisan, nonprofit professional association exclusively representing federal law enforcement
officers. FLEOA represents more than 28,000 uniformed
and non-uniformed active and retired federal law
enforcement officers from over 65 different agencies.
FLEOA is a charter member of the Department of
Homeland Security Federal Law Enforcement Advisory
Board; holds two seats on the Congressional Badge of
Bravery Federal Board; and serves on the Executive
Board of the National Law Enforcement Officers
Memorial Fund and the National Law Enforcement
Steering Committee. FLEOA provides a legislative
voice for the federal law enforcement community and
monitors legislative and other legal issues that may
impact federal law enforcement officers.
Due to the highly sensitive work conducted by
FLEOA members, the security of the data they rely
upon is paramount. Advances in technology have
greatly assisted modern law enforcement agencies by
increasing the efficiency, accuracy, and responsiveness of their efforts. No technology has been more
important to the administration of law enforcement
than computer systems. The systems in use by law
enforcement today range from relatively mundane
recordkeeping software to sophisticated programs and
databases that allocate and direct law enforcement’s
1

Pursuant to Supreme Court Rule 37.6, no counsel for a party
authored this brief in whole or in part. No person or entity other
than the Federal Law Enforcement Officers Association and its
members made any monetary contribution to fund the preparation or submission of this brief. The parties have consented to
this filing.

2
resources. The information stored on and accessible
through the IT systems operated by federal law enforcement agencies is no less important. It includes, among
other data, a staggering amount of sensitive and confidential information concerning ongoing investigations
and agency plans and procedures. In performing their
duties to protect and serve the public, FLEOA members
rely on these IT systems and databases every day. As
such, FLEOA is well aware of the dangers that would
result should the information contained in those
systems be subject to unauthorized dissemination,
alteration, or deletion. Perhaps in no single other area
would the administration of justice in this country be
so corrupted than if federal law enforcement computer
systems were to be rendered unavailable or unreliable.
For those reasons, FLEOA — recognizing that the
Computer Fraud and Abuse Act (“CFAA”) is the primary
federal statute which criminalizes malfeasance in relation to federal law enforcement’s computer systems —
is substantially invested in ensuring that the CFAA
is interpreted in a manner which fully protects the
accuracy, reliability, and security of its computer
systems and databases.
SUMMARY OF ARGUMENT
Since being enacted in 1986, the Computer Fraud
and Abuse Act has been the most visible and effective
federal law to combat cybercrime. While the CFAA
criminalizes a variety of cybercrimes, the majority
of the prohibited acts require that an individual access
a computer either “without authorization” or by
“exceed[ing] authorized access.” The CFAA defines
“exceeds authorized access” as “to access a computer
with authorization and to use such access to obtain or
alter information in the computer that the accesser is
not entitled so to obtain or alter” (18 U.S.C. § 1030(e)(6)),

3
but the seemingly more basic term “authorization” is
left without any explicit statutory definition. As a
result of this circumstance, differing interpretations of
the term “authorization” will either bolster criminal
protections of vital law enforcement databases or
severely undermine them.
It should be noted that this confusion does not apply
in instances where an “outsider” — that is, someone
who has no legitimate access to a computer system for
any purpose — accesses a federal database. The CFAA
is quite clear when applied to the circumstances of
an outside “hacker” who uses technological tools and
methods to “break into” a system and thereby steal
data or commit cyber-vandalism. Although that situation may be the one most thought of as prototypical by
those without significant experience in the field of
computer security, those with such experience are
all too well-aware that the threat to systems by
“insiders” — those who have been granted, as a
technological matter, the ability to use a computer
system — is at least as, and in many cases more,
significant than the threat from outsiders. Countless
examples from both the public and private sectors
demonstrate that individuals who routinely access
shared computer resources in their day-to-day jobs are
quite often the perpetrators of crimes targeting data
contained on those systems or the operation of the
systems themselves.
It is in the realm of this “insider” threat that
application of the CFAA has become muddled. Under
the current state of the law, there is uncertainty as
to whether the provisions of the CFAA which contain
the element of “unauthorized” activity are to be read
as referring merely to the technological provision
of access credentials to a system or data, or

4
whether other factors — such as policy or contractual
restrictions — should also be considered when evaluating the nature of an individual’s activity on a
computer system.
FLEOA respectfully submits that an interpretation
of the CFAA that, as Petitioners maintain, considers
only the issue of technological controls would be
disastrous to the security of sensitive law enforcement
computer systems and databases. This is because a
regime where the only relevant question is “could the
defendant have accessed this data without resorting to
‘hacking’ activities” would allow any person who has
legitimate access to the data carte blanche to access
and use (or indeed in many cases destroy) that data for
any manifestly blameworthy reason they choose. Such
a regime therefore renders limited-use grants of access
meaningless.
Put another way, Petitioner’s reading of the law
shifts the blame from the person who commits a data
theft or vandalism to the system’s overseer for failing
to implement technological measures to stop the thief
or vandal. To analogize to the physical world (as is
often useful in the analysis of abstract computer security questions), Petitioner’s interpretation is akin to a
rule of law that states “if you give a key to your
neighbor so they can water your plants while you
are on vacation, you cannot prevent them from going
through your medicine cabinet and stealing your
jewelry as well.” This reading contradicts the plain
and common understanding of what it means to engage
in “unauthorized” conduct. It also makes no sense.
Worse still, from a practical perspective, a purely
technological interpretation of “authorization” in the
CFAA would present law enforcement with a dilemma.
On the one hand, they could choose to administer and

5
maintain those systems in a manner which allows
legitimate users the greatest freedom to conduct their
work efficiently — but risk insider abuse of those
systems and forego any criminal legal recourse for that
misuse by those insiders. Alternatively, they could
frantically attempt to “lock down” access controls to
those systems so as to retain the possibility of criminal
recourse — but, in the process, render the systems
inefficient to maintain, far more costly in terms of
financial and human resources, and removing much of
their cross-platform efficacy and intelligence-sharing
functionality.
FLEOA proposes that the only way out of this
quandary is by according “unauthorized access” its
plain, common-sense meaning. We therefore respectfully submit that the operator of a system, as the
owner of that property, has the right to determine
what each user of the system is permitted to do on that
system. FLEOA further submits that, when the scope
of that access is clearly delineated to the user, the
scope of authorization is what controls for a violation
of the statute; “authorization” is that which has been
granted by the system owner and no more. Particularly
in the context of non-public systems containing highly
sensitive, confidential and non-public data used daily
by law enforcement, FLEOA maintains that the
objectives of the CFAA — to protect computerized
systems and data from theft, malicious destruction,
and attacks which render those systems unusable —
are more reasonably met when the scope of “authorized” activity is determined by considering the totality
of the circumstances of the grant of access against the
plain meaning of the statute, and not merely the dry
technological controls employed.

6
ARGUMENT
I. AN INTERPRETATION OF THE CFAA
WHICH ONLY FOCUSES ON THREATS
FROM OUTSIDE “HACKERS” IGNORES
THE REALITY OF HOW MODERN COMPUTER SYSTEMS, INCLUDING THOSE
USED BY LAW ENFORCEMENT, OPERATE
A. Computerized Systems Used by Federal
Law Enforcement Agents and Officers
Are Repositories of Massive Amounts of
Highly Sensitive Information
Like most modern organizations, federal law enforcement agencies rely heavily on computerized systems
to fulfill their core mission of protecting the public
and the Nation. These systems can be as relatively
“simple” as servers that contain files relating to open
criminal investigations, or as complex as databases
which allow multiple law enforcement agencies to
aggregate, share, and analyze information concerning
criminal activity nationwide and internationally. While
an exhaustive catalogue and discussion of the computerized systems used by federal law enforcement is
not practicable in the context of this brief, a short
overview of how those systems are generally used is
instructive.2


2

Computerized Records of Criminal Investigations.
The vast majority of all written records produced by law enforcement officials are, at some
point, stored in digital format on computers. In

FLEOA notes that descriptions of computer systems and
databases in this brief necessarily omit law-enforcement-sensitive
specifications regarding those systems and databases. Should
the Court desire more detail on any of these systems or databases, FLEOA can provide that information to the Court.

7
addition to ongoing case reports filed by investigators, these files often also include extremely
sensitive information, such as the names,
addresses, phone numbers and other personal
information of victims, suspects, and witnesses.


Records Concerning Individuals Whose Identities
Require Protection. Law enforcement maintains
records of the identities of a variety of people
whose physical safety relies to a great extent
on the secrecy of their association with law
enforcement. Such individuals include protected witnesses, confidential informants, and
undercover officers.



Policies and Procedures. Each law enforcement
agency maintains written documentation concerning how it conducts its operations. These
records include both generally-applicable policies, such as a description of how a border
control agent will typically conduct a search at
an international crossing, as well as plans for
individual operations, such as how the Secret
Service will be deployed during a specific
protection detail.



Communications Systems. Computerized hardware and software communications systems used
daily by law enforcement officers provide for
both traditional written correspondence (email
and text messages) and immediate transmission of orders to law enforcement personnel,
including agents working in the field.



Intelligence Sharing Systems. Many law enforcement agencies, both local and federal,
maintain databases of criminal and intelligence
activity which aggregate information gathered

8
from an array of sources. These systems allow
law enforcement agencies to, among other
things, identify patterns in crimes from which
more effective enforcement techniques may be
derived, and to access files created by other
agencies which may assist in their investigations. Examples of such systems include the
Narcotics and Dangerous Drugs Information
System (NADDIS), which is an interface allowing law enforcement agents to access U.S. Drug
Enforcement Administration data, and the
National Child Victim Identification Program
(NCVIP), operated by the Child Exploitation
and Obscenity Section of the Department of
Justice, which is a database of seized child
pornography that is used to identify the abused
victims of child pornography.


Personnel Information. Like almost every other
entity in the United States that employs individuals, law enforcement agencies also operate
computerized systems that contain confidential
human resources and payroll records of civilian
agency employees and uniformed and nonuniformed law enforcement officers. These records
include names, home addresses, personal telephone numbers, Social Security Numbers, names
of relatives (and emergency contacts), health
records, and bank account direct-deposit, pension and retirement and other benefits records,
to name but a few examples. A security breach
that results in the exposure of this type of information could result in physical harm, threats,
or harassment targeting both law enforcement
officers and agency civilian employees. This
concern is not unique to law enforcement, although
law enforcement officials, like legislators and

9
member of the judiciary, by virtue of their
positions, may be more likely targets of physical
threats and other malicious activity than other
members of the public should this information
be disclosed.3
B. Law Enforcement Systems and Databases
are Legitimately and Regularly Accessed
by a Large Number of Users
The computerized systems used by law enforcement
are intended primarily for the use of law enforcement
agents, but many authorized users have access to
these systems. According to the Bureau of Justice
Statistics, as of 2016 there were more than 132,000
full-time federal law enforcement officers employed by
83 federal agencies, along with hundreds of thousands
of state and local officers.4 Considering only these
officers, however, greatly understates the number of
users who have legitimate access to law enforcement
systems. In addition to law enforcement officers,
federal agencies (and state and local police forces)
employ a huge number of civilians in roles such as
3

As the press has noted, a recent report by the Department of
Homeland Security warns that personal information including
names, email addresses, phone numbers, and home addresses of
law enforcement personnel has been posted to social media as
part of a malicious “doxing” campaign directed against law enforcement officials. Should that information have been accessed
through unauthorized use of law enforcement databases by insiders,
the CFAA should be available to prosecute such conduct. See
Michael Balsamo and Colleen Long, AP Exclusive: Police Officers’
Personal Info Leaked Online, Associated Press (Jun. 10, 2020),
https://apnews.com/23a5e9d316127994ae31ad4813db3f80.
4

U.S. Dep’t of Justice, Office of Justice Programs, Bureau of
Justice Statistics, Federal Law Enforcement Officers, 2016 —
Statistical Tables, NCJ 261992 (Oct. 2019), https://www.bjs.gov/
content/pub/pdf/fleo16st.pdf.

10
crime analysts, dispatchers, forensic technicians, and
records management. Beyond that, many agencies
necessarily must employ outside contractors to support
their activities, including in areas such as data entry
and IT technical support which necessitate permissioned access to sensitive law enforcement computer
systems and databases. In total, it is reasonable to
estimate that substantially more than 1 million
individuals have technological access to one or more
non-public law enforcement computer system as part
of their legitimate job responsibilities. With numbers
such as these, the lack of a powerful disincentive to
abuse legitimate access or a muscular mechanism to
redress abuse poses real peril.
II. THREATS TO LAW ENFORCEMENT
DATABASES AND COMPUTER SYSTEMS
ARE THREATS TO PUBLIC SAFETY AND
TO THE ADMINISTRATION OF JUSTICE
As a result of the nature of the data stored on law
enforcement computer systems and the critical role
those systems play in law enforcement’s routine activities, malicious actors who misuse such confidential
information could create significant threats to the
safety of individuals and to the integrity of ongoing
investigations.
Wholesale access to active, secure investigation
files, without the possibility of redress through the
CFAA looms as a critical threat over law enforcement’s
operations. In the most troubling scenario, the targets
of investigations could become aware of both the
existence of those investigations and the specifics of
what law enforcement knows of their activities and
how it intends to continue the investigation. This form
of knowledge could be used, for example, to destroy
evidence, to terminate relationships with exposed

11
undercover officers, or to flee prior to the execution of
a search warrant. More subtly — but perhaps even
more insidiously — a corrupt individual with access to
investigative files could easily alter key facts in those
records in a manner that leads officers to misinterpret
situations or that introduces a flaw in a search warrant
application or even an arrest — and could even undermine confidence in all information in the database.
Moreover, even “closed” files often contain extremely
sensitive information concerning the identities of
individuals whose physical and/or emotional wellbeing is dependent on the confidentiality of those files.
These dangers include physical threats resulting from
criminal organizations becoming aware of the identities of undercover officers, confidential informants,
cooperating witnesses or federally-protected witnesses.
They also include non-physical dangers to privacy
safeguards that the law affords to the identities of
certain classes of individuals, including minors and
the victims of sexual offenses. That law enforcement
databases often act as a historical record of an agency’s
activities only heightens the threats posed by malfeasance in relation to those systems and databases.
Another example of the danger unregulated insider
access poses concerns a law enforcement agency’s
internal procedures. These procedures can be as
seemingly mundane as the processes for checking out
an agency-owned vehicle, or as sophisticated as the
network security protocols in place to protect the
agency’s computer systems from outside attacks. The
efficacy of these law enforcement “playbooks” are
largely dependent on the fact that their contents are
unknown to criminals and criminal enterprises. For
example, were narcotics traffickers to become aware
of the precise scale and capabilities of the Drug

12
Enforcement Agency to detect smuggling operations,
or the manner in which those capabilities are routinely
deployed, they could — and would — design their
operations to avoid detection. Knowledge of computer
system vulnerabilities gained by a malevolent insider
could also lead to an outsider hacking into a highly
sensitive criminal or national security database at will.
Plans for specific operations are another aspect
of law enforcement procedures that must be kept
confidential. For example, federal agents are often
tasked with transporting protected witnesses or protecting members of the executive, legislative and
judicial branches during public appearances. An
individual who intends to perpetrate an act of violence
against a protected individual would obviously be
greatly advantaged by advanced knowledge of the
identities, locations, and assignments of each agent
participating in a protection detail.
These examples are far from exhaustive. Like any
other organization with competitors, law enforcement
derives benefits from the fact that its adversaries
are unaware of its confidential information. In the
business context, the ability to keep proprietary information confidential from commercial competitors can
afford a financial advantage. But for law enforcement,
where the “competitors” are criminals and criminal
organizations, the consequence of having the “playbook”
known to the opponent is an undeniable and significant diminution of public safety. In the most egregious
scenario, it can mean the difference between life and
death.5

5

Consider, for example, the case of a disgruntled agency
contractor who, because their bill was not paid on time, makes
public all of the information on a law enforcement operations

13
III. THE CFAA IS A PROVEN METHOD OF
PROTECTING GOVERNMENT SYSTEMS
FROM INSIDER THREATS
A. The Threat of Data Theft
That the CFAA may be used to punish outsiders who
cause damage to government computers has been well
established at least since the Second Circuit’s decision
in United States v. Morris, 928 F.2d 504 (2d Cir. 1991)
(upholding the conviction of defendant who released
“worm” malware onto the Internet when the worm
subsequently caused damage to systems including
military computers), cert. denied, 502 U.S. 817 (1991).
But it is also important to recognize that interpretation of the CFAA as advocated by Amici has proven an
invaluable tool in combatting cybercrime committed
by insiders who target law enforcement computer
systems.
An examination of several cases in which a computer
operator was granted access permission to a system
and was then prosecuted for malicious acts committed
outside the scope of that access, is instructive:


Abusing Civilian Access to Provide Details of
Ongoing Investigations to Criminals. In 2009, a
civilian employee working as a data entry clerk
for a contractor was tasked with entering data
into the NADDIS database. While having clear
permission to be on the system, the clerk was

database to which they have access. Or an IT consultant with
technological access to a government personnel database who
posts on the Internet all of the personal information of all of the
civilian and non-civilian employees of a given law enforcement
agency because of disdain for that particular agency — or for law
enforcement generally. In these situations, real harm may befall
numerous victims.

14
prohibited, as a matter of policy, from using
NADDIS for any purpose other than entering
records supplied by law enforcement agents.
The policy also prohibited the clerk from querying NADDIS for any other purpose, and the
clerk was, by written agreement, expressly warned
that the disclosure of NADDIS files could
endanger DEA investigations. As a result, she
was not permitted to communicate any information found in NADDIS. In flagrant violation
of these policies, the clerk subsequently used
her access to NADDIS to obtain information
concerning the DEA’s investigation into two
individuals, including her romantic partner,
and divulged details concerning the investigation to those individuals.6 The details included
that law enforcement had placed a GPS tracker
on a co-conspirator’s car. As a result of the
clerk’s activities, law enforcement was forced to
execute search warrants earlier than anticipated and, likely as a result of being “tipped off,”
only one other member of the drug organization
was arrested and charged. The clerk was
indicted and pleaded guilty to conspiracy stemming from her violations of the CFAA.7


Local Employee Using Federal Access to Commit
Identity Theft. While the CFAA is a federal
statute, it has been effective at the state and

6

Indictment, United States v. Perry, No. 09-cr-0090 (D. Md.
Feb. 25, 2009).
7

U.S. Attorney’s Office for the District of Maryland, DEA
Contractor Pleads Guilty to Illegally Accessing Government Database,
U.S. Department of Justice (Oct. 20, 2009), https://www.justice.
gov/archive/usao/md/news/archive/DeaContractorPleadsGuiltyto
IllegallyAccessingGovernmentDatabase.html.

15
local level as well. In a recent example, a
civilian employee of the Tampa Police Department was tasked with taking down reports from
citizens and entering them into various law
enforcement databases. To accomplish this
task, she was provided access to, among other
databases, the National Crime Information
Center (NCIC) computerized index: a system
maintained by the Federal Bureau of Investigation for the purpose of assisting law enforcement
agents to perform their official duties. The
civilian employee was restricted from using the
NCIC for any purpose other than the performance of her authorized duties. In clear
violation of these policies, as part of an identity
theft conspiracy, the civilian employee accessed
the personal information of individuals in the
NCIC database and provided that information
to co-conspirators who used it to file fraudulent
federal income tax returns in order to obtain
fraudulent tax refunds from the government.
The civilian had authorized access; however,
she misused it. Consequently, the employee
was indicted in 2015 on a number of federal
charges, including a violation of the CFAA.8


8

Theft of Military Intelligence. In 2010, U.S.
Army Private Chelsea Manning (known then as
Bradley Manning) downloaded a large trove of

Indictment, United States v. Bright, No. 15-cr-00366 (M.D.
Fla. Sep. 9, 2015); see also U.S. Attorney’s Office for the Middle
District of Florida, Former Police Department Employee Indicted
for Tax Fraud, Computer Intrusion, and Identity Theft, U.S.
Department of Justice (Sept. 15, 2015), https://www.justice.gov/
usao-mdfl/pr/former-police-department-employee-indicted-tax-fra
ud-computer-intrusion-and-identity.

16
sensitive military intelligence documents from
a classified database and transmitted them to
WikiLeaks founder Julian Assange, who published them online. Private Manning’s TopSecret rating lawfully permitted access to the
database. At trial, in addition to espionage
charges, Manning was convicted of violating the
CFAA.9
B. The Threat of Data Manipulation
Another particularly insidious manner in which
authorized users of law enforcement computer systems have interfered with officers’ duties is through
the alteration or insertion of false records into official
records. Individuals with access to law enforcement’s
electronic systems can instruct officers to respond to
non-existent threats, thus diverting them from actual
crime scenes. Insiders who manipulate records can
also remove critical details from investigative records
which may stop law enforcement from effectively pursuing a case, while manipulation of historical records
can make criminal history invisible to background
checks. Subtle alterations in intelligence databases
can also conceal the identities or activities of those
acting against U.S. interests in the espionage and
terrorism realms.
9

On appeal to the U.S. Army Criminal Court of Appeals,
Manning challenged the scope of the CFAA, arguing that the
statute was misapplied in light of the fact that access to the
database was “authorized.” The appeals court recognized the
circuit split in the civilian courts on this issue and affirmed the
conviction based on a reading of the statute advocated by FLEOA.
United States v. Manning, 78 M.J. 501, 510-11 (U.S. Army Ct.
Crim. App. 2018) (noting circuit split between First, Fifth,
Seventh, and Eleventh Circuits and Second, Fourth, and Ninth
Circuits).

17
At first glance, it would seem as though the various
CFAA subsections which prohibit conduct based on a
defendant’s exceeding his access to a computer would
govern these examples, as subsection (e)(6)’s definition
encompasses the alteration of information that the
“accesser” is “not entitled” to “alter.” Clearly, a law
enforcement employee is not entitled to alter or falsify
agency records. However, since “entitled” is just as
undefined in the CFAA as is “without authorization,”
we confront the same conundrum concerning the
distinction between technological measures and communicated permissions. What would stop, for example, a
records clerk who deletes a law enforcement file from
claiming that he was “entitled” to do so purely on the
basis of his technical permission to access to those
records as part of his legitimate job duties?
This concern is not merely hypothetical. Examples
of law enforcement “insiders” who have manipulated
records for criminal purposes through their legitimate
technical access include:


Attempts to Corrupt Law Enforcement Databases.
In 2010, a former data analyst working from
the Transportation Security Administration’s
Colorado Springs Operations Center (CSOC),
tasked with updating the TSA’s servers
with data received from the federal Terrorist
Screening Database and the U.S. Marshal’s
Service Warrant Information Network, transmitted malicious code to the TSA’s system in
an intentional attempt to corrupt the CSOC’s
systems and interfere with those systems’ ability
to be used to screen air passengers. The data

18
analyst was indicted and pleaded guilty to
charges under the CFAA.10


Falsification of Records to Enable Identity
Theft. In 2011, a contractor who worked as a
records custodian at U.S. Citizenship and Immigration services pleaded guilty to violating the
CFAA in connection with a scheme in which
he assisted illegal aliens in obtaining U.S.
passports by deleting the names, birth dates
and other personal information of naturalized
citizens in a secure database and substituting
them with the personal information of illegal
immigrants. Subsequent searches for the illegal
immigrants by government officials would then
indicate that the individuals were citizens
entitled to passports.11



Falsification of Records to Cause Detention of
An Innocent Person. In 2018, a former U.S.
Border Patrol Agent pleaded guilty to creating
and entering into TECS (a database used by
officers to assist in screening at border crossing)
a false law enforcement alert claiming a man
with no criminal history was frequently armed
with a firearm and known to be linked to the
narcotics trade, resulting in that man’s being
detained multiple times at border crossings.
The former agent had created the false alert in

10

Indictment, United States v. Duchak, No. 10-cr-00131 (D.
Colo. Mar. 9, 2010); see also U.S. Attorney’s Office for the District
of Colorado, Colorado Springs Man Indicted for Attempting to
Corrupt TSA Computer Database, U.S. Department of Justice
(Mar. 10, 2010), https://www.justice.gov/archive/usao/co/news/
2010/March10/3_10_10.html.
11

Information, United States v. Quidilla, No. 11-cr-00617 (S.D.
Cal., Feb. 17, 2011), Dkt. No. 14.

19
an effort to coerce the victim into dropping
criminal sex abuse charges against the agent’s
brother-in-law.12
All of the above are instances which would fall outside
the purview of the CFAA were Petitioner’s view of the
statute be adopted.
IV. A PURELY “OUTSIDE HACKER” INTERPRETATION OF THE CFAA WOULD LIMIT
ITS UTILITY AND IMPOSE SUBSTANTIAL
COSTS ON ITS USE
Should the CFAA only prohibit the conduct of those
who access systems to which they are technologically
denied access, rather than also taking into account
procedural and policy prohibitions, the only recourse
for any entity — law enforcement or otherwise — to
protect its systems will be to strictly limit technical
authorization for each individual who uses those
systems.
This authorization will necessarily be
limited to only the absolute minimum required to
accomplish their job responsibilities. This is not
practical. It also makes no sense.
For multiple reasons, imposing strict user-based
limitations on access to specific files and systems is an
expensive, time-consuming, and inefficient process.
12

Complaint, United States v Figeroa et al., No. 15-cr-02818
(S.D. Cal. Oct. 7, 2015) (defendant Duran in this case was charged
with a violation of Title 18, United States Code, section 1519
(Destruction, alteration, or falsification of records in Federal
investigation) rather than of the CFAA); see also U.S. Attorney’s
Office for the Southern District of California, Former U.S. Border
Patrol Supervisor Pleads Guilty, Admits to Violating Civil Rights
of Legal Border Crosser, U.S. Department of Justice (Aug. 16,
2018), https://www.justice.gov/usao-sdca/pr/former-us-border-pat
rol-supervisor-pleads-guilty-admits-violating-civil-rights-legal.

20
First, file permissions would have to be set on a fileby-file basis, rather than system or database-wide.
Second, each user would have to be granted or denied
access to each file on an individual, rather than groupbased basis. And third, the administrator of each
system would be deluged with requests for exceptions
to the access-control policy so that frontline workers
could simply do their jobs.
In the context of law enforcement, this would
require, for example, only allowing an agent access to
the specific case files for the investigations to which he
or she is assigned at that very moment. Database
overseers would then be inundated with requests from
agents to grant one-time access to other files or
systems. The alternative — allowing agents access to
files not directly related to their day-to-day tasks —
would expose data to misuse, alteration, or destruction
without the possibility of criminal recourse or even
civil sanction under the CFAA.13 Additionally, as
law enforcement supervisors would in many cases
continue to have unfettered access to the databases in
use by their subordinates, supervisors would have
carte blanche to access, manipulate or delete data in
any manner they chose.
Applying such a “hacker-only” CFAA regime to the
administration of the NADDIS database (mentioned
13

Although some wrongdoing — for example, exfiltration of
classified information by a corrupt insider from an intelligence
community database — might be covered under other federal
criminal statutes, that may not always necessarily be so.
Moreover, even in cases where other crimes could theoretically
apply to clearly blameworthy data destruction, theft, or misuse
by an insider, the loss of the clear and straightforward provisions
of the CFAA (as understood by FLEOA) would remove a valuable
tool available to prosecutors to redress these wrongs.

21
above) is instructive. NADDIS is currently protected
from unauthorized access by administrative, technical, and physical means and all authorized users
acknowledge in writing that they may not disseminate
the information contained on the system. Through
these safeguards, access to NADDIS is restricted only
to those who use the system for specific assigned tasks.
These authorized users include DEA agents as well as
civilian employees who, for example, enter data into
the system. Technical access can, however, be granted
to “groups” of users by allowing, for example, all DEA
employees who are agents and supervisory agents
permission to view certain records within the database.
If Petitioner’s proposed interpretation of the CFAA
is adopted, to ensure that data contained within NADDIS
continues to be maximally protected, access to NADDIS
would have to be further restricted by taking such
steps as eliminating group-based authorizations and
restricting each individual agent to access records
concerning the cases on which that individual agent is
currently working. Under this approach, granting
permissions to access NADDIS potentially changes
from a simple, role-based and largely one-time authorization, to one in which every document or electronic
record entered into the database would need specific,
unique access criteria assigned to it. In addition,
should a DEA agent wish to view NADDIS entries
for other matters (for example, to see if any other
investigations have involved similar factual circumstances), the agent would have to request permission
to access those records — a cumbersome process which
would delay access to data during a time-sensitive
investigation.
It is this latter issue which reveals the subtler, but
more critical, problem with strict file-based access

22
control mechanisms: They remove the ability of
computerized systems to be used for intelligence and
information collaboration and sharing, thus defeating
the very purpose for which many law enforcement
databases are designed. NADDIS, along with numerous other law enforcement databases, exist primarily
to allow law enforcement the benefit of shared intelligence and iterative analysis of information which has
been gathered by agents and officers nationwide and
even internationally. These officers are then able to
leverage this aggregated knowledge to inform their
investigations and enforcement activities.
If the CFAA is interpreted not to criminalize misuse
of data to which technical access has been granted, law
enforcement will be deprived of a powerful tool —
in some cases the only tool — to deter and punish
unauthorized misuse of vital criminal intelligence
systems and databases.

23
CONCLUSION
Given the critical nature of the computerized
systems used by federal law enforcement agencies on
a daily basis and the threats to those systems both
from insiders and outsiders, a narrow reading of the
CFAA limited only to outsider “hackers” would allow
acts which are commonly and reasonably perceived as
serious cybercrimes to fall outside the scope of the
statute. It is therefore essential to the public safety
mission of federal law enforcement agents that the
Court accord the term “unauthorized access” as it is
used in the CFAA, according to its plain meaning so as
to protect non-public, sensitive data from malicious
misuse or vandalism from both external and internal
wrongdoers.
Respectfully submitted,
JOSEPH V. DEMARCO
Counsel of Record
DAVID M. HIRSCHBERG
ERIC SEIDEL
BRIAN A. FOX
DEVORE & DEMARCO LLP
99 Park Avenue, Suite 1100
New York, NY 10016
(212) 922-9499
(917) 576-2369
jvd@devoredemarco.com
Counsel for Amicus Curiae
August 31, 2020

